APPENDIX A

PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 15-4062

UNITED STATES OF AMERICA
v.
MARCUS WALKER,
Appellant

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-13-cr-00391-002)
District Judge: Hon. Legrome D. Davis

ARGUED
October 5, 2020
Before: JORDAN, KRAUSE, and ROTH, Circuit
Judges.
(Filed: March 5, 2021)

(1a)

2a
Linda D. Hoffa [ARGUED]
Dilworth Paxson
1500 Market Street – Suite 3500E
Philadelphia, PA 19102
Counsel for Appellant
Bernadette A. McKeon
Yvonne O. Osirim
Virginia P. Pratter
Robert A. Zauzmer [ARGUED]
Office of United States Attorney
615 Chestnut Street – Suite 1250
Philadelphia, PA 19106
Counsel for Appellee

OPINION OF THE COURT
JORDAN, Circuit Judge.
Does an attempt to commit a crime of violence categorically qualify as a crime of violence itself? That is the
question we must answer in applying 18 U.S.C. § 924(c),
which forbids the use or carrying of a firearm in relation
to a crime of violence. Given the language of § 924(c) and
the clear congressional intent behind it, we answer yes: an
attempt to commit a crime of violence does categorically
qualify as a crime of violence under that statute.
Appellant Marcus Walker challenges his conviction
under § 924(c), as well as his convictions for conspiracy to
commit Hobbs Act robbery and attempted Hobbs Act
robbery in violation of 18 U.S.C. § 1951(a). Although we
earlier issued a nonprecedential opinion affirming the
District Court’s judgment on all grounds, we vacated that
opinion and granted Walker’s request for panel rehearing
following the Supreme Court’s decision in United States
v. Davis, 139 S. Ct. 2319 (2019), which, in pertinent part,

3a
held that one of the definitions of “crime of violence” in
§ 924(c) is unconstitutionally vague. Id. at 2336.
In light of Davis, the most significant questions remaining before us are whether attempted Hobbs Act robbery is categorically a crime of violence under the remaining definition, the so-called “elements” clause of § 924(c),
18 U.S.C. § 924(c)(3)(A), and therefore, whether Walker’s
conviction under § 924(c) can stand. Walker argues that
his conviction must be vacated because a person can be
convicted for attempted Hobbs Act robbery based on
nothing more than an intent to complete the robbery and
a non-violent substantial step – in other words, without
actually committing a violent act and with only the intent
to do so. Although that is true, we nevertheless join the
majority of our sister circuits that have considered the issue and hold that, given the plain language of § 924(c), attempted Hobbs Act robbery is categorically a crime of violence. We also once more reject Walker’s complaints
about evidentiary rulings and the jury instructions. In
short, we again affirm.
I.

Background

This case stems from a robbery in which Walker
acted as the lookout.1 While he waited in a car, two of his
accomplices robbed a house, one holding a 12-year-old boy
at gunpoint. All of Walker’s codefendants pleaded guilty
to various counts, and Walker alone went to trial.
At trial, the government presented testimony from
three cooperating individuals who were involved in or
knew about the robbery, as well as from Agent Patrick
Henning, the lead investigator on the case. In addition to
1
Although Walker waited in the car to act as a lookout, the government presented evidence that Walker organized the robbery – gathering the other robbers, suggesting the target, and urging entry into
the house although someone was home.

4a
testifying about proffer sessions he had with two of the
cooperating witnesses, Henning spoke at length about cell
phone records and cell site location information (“CSLI”)
associated with cell phones used in furtherance of the
crimes.2
With respect to the cell phone records, Henning testified that an analyst extracted data from cell phones
seized from two of the cooperators, which yielded contact
lists, call records, and text messages. In addition, the government obtained through subpoena “call detail records”
from the phone companies for those same phones, which
included “pages and pages of phone records that list, with
timestamps, calls that are made in sequential order[,]” as
well as subscriber information. (App. at 686.) From this
information, Henning and an analyst organized certain
data into slides depicting phone contacts between codefendants during the relevant time frame.
The CSLI evidence was obtained pursuant to a court
order, issued under the Stored Communications Act, 18
U.S.C. § 2703.3 With that information in hand, Henning
created a series of maps that identified “points of interest”
in the case, such as the location of the robbery target and
the latitude and longitude of the cell towers to which
Walker’s and a codefendant’s cell phones had connected
at pertinent times. (App. at 707.) When asked how CSLI
worked, Henning explained what he knew, but he began
CSLI identifies the cell towers to which a cell phone connects at
certain times, allowing the government to determine the cell phone’s
approximate location at the times of connection. See Carpenter v.
United States, 138 S. Ct. 2206, 2211-12 (2018).
3
Section 2703 authorizes courts to order cell phone providers to disclose non-content information if the government “offers specific and
articulable facts showing that there are reasonable grounds to believe
that . . . the records or other information sought, are relevant and
material to an ongoing criminal investigation.” 18 U.S.C.
§ 2703(c)(1)(B), (d).
2

5a
by acknowledging that he is not an expert in the technology. Defense counsel promptly objected on the ground
that Henning was not an expert witness.4 At side bar, the
parties agreed that “just transposing [onto a map] the latitude and longitude” of a cell phone tower to which a
phone had connected – information provided by the phone
companies – did not require expert analysis, and the District Court allowed Henning to proceed. (App. at 710-11.)
Henning went on to explain how the CSLI placed Walker
and an accomplice in locations that were consistent with
their involvement in the robbery.
The jury convicted Walker on all three counts, those
counts being, again, conspiracy to commit Hobbs Act robbery in violation of 18 U.S.C. § 1951(a), attempted Hobbs
Act robbery in violation of 18 U.S.C. § 1951(a), and using
and carrying a firearm during and in relation to a crime of
violence in violation of 18 U.S.C. § 924(c). The District
Court sentenced him to a combined 72 months’ imprisonment on the conspiracy and attempt counts and a consecutive term of 60 months on the § 924(c) count.
Walker timely appealed, arguing that the District
Court erred in four ways: (1) admitting CSLI obtained
without a search warrant as required by Carpenter v.
United States, 138 S. Ct. 2206 (2018); (2) permitting Agent
Henning to vouch for cooperating witnesses’ testimony
and to violate the Sixth Amendment right to confrontation
by testifying to information in a report Henning did not
create; (3) allowing conviction on the § 924(c) count when,
according to Walker, neither conspiracy to commit Hobbs
Act robbery nor attempted Hobbs Act robbery are
4
Defense counsel did not object when Henning explained, only moments before, that “[t]his data is cell tower locations, it’s where the
phones that the men in this robbery were using, where these phones
were communicating, which towers they were communicating with at
certain parts—certain parts of certain days.” (App. at 706.)

6a
categorically crimes of violence under § 924(c); and (4) allowing the § 924(c) conviction despite ambiguity as to
whether the jury relied on attempted robbery or conspiracy to commit robbery as the predicate crime of violence.
As already noted, we had issued a nonprecedential
opinion affirming the District Court’s judgment and the
sentence it imposed, but following the Supreme Court’s
decision in Davis, Walker filed a petition for panel rehearing or for rehearing en banc. He argued that Davis abrogates United States v. Robinson, 844 F.3d 137 (3d Cir.
2016), a case we had relied upon in denying him relief in
the earlier appeal of his § 924(c) conviction. We agreed
that Robinson is no longer controlling and granted his petition for panel rehearing. Having vacated the original
opinion and judgment, we now address all four of Walker’s
arguments again.
II. Discussion5
A. Admissibility of the CSLI
We first consider the arguments related to CSLI.
Walker’s primary argument begins with the Supreme
Court’s decision in Carpenter v. United States. In Carpenter, the Court held that compliance with the Stored Communications Act alone is not sufficient to legally access
historical cell-site records because the showing required
of the government by the Stored Communications Act
“falls well short of the probable cause required for a
5
The District Court had jurisdiction under 18 U.S.C. § 231. We have
jurisdiction under 28 U.S.C. § 1291. Because Walker raises these issues for the first time on appeal, we review for plain error. United
States v. Saada, 212 F.3d 210, 223 (3d Cir. 2000). Under the plain error standard, the defendant must show that there was (1) an actual
error, (2) that is plain, (3) that affects the complaining party’s “substantial rights,” and (4) that “seriously affect[ed] the fairness, integrity or public reputation of judicial proceedings.” United States v.
Olano, 507 U.S. 725, 733-36 (1993) (citations omitted).

7a
warrant.” 138 S. Ct. at 2221. According to Walker, the District Court thus plainly erred when it allowed the government to introduce CSLI obtained without a warrant. Although it is now true that law enforcement must generally
secure a search warrant based on probable cause to obtain
CSLI, see id., Walker’s argument is foreclosed by our decision in United States v. Goldstein, which holds that the
exclusionary rule does not apply when the government
“had an objectively reasonable good faith belief that its
conduct was legal when it acquired [the] CSLI.” 914 F.3d
200, 202 (3d Cir. 2019). As in Goldstein, the agents here
obtained the CSLI evidence in good faith reliance on a
then-valid judicial order, a then-valid statute, and thenbinding appellate authority. See id. at 204. The District
Court, therefore, did not commit any error, much less
plain error, by admitting the CSLI into evidence.
B. Agent Henning’s Testimony
Walker next argues that the District Court committed plain error by permitting Henning to testify about the
phone records and CSLI because that testimony was
based on a report Henning did not create and therefore
the testimony violated Walker’s Confrontation Clause
rights under the Sixth Amendment. Walker also argues
that Henning improperly vouched for the testimony of the
cooperating witnesses.
The Confrontation Clause provides that “[i]n all criminal prosecutions, the accused shall enjoy the right … to
be confronted with the witnesses against him[.]” U.S.
Const. amend. VI. It generally bars “admission of testimonial statements of a witness who did not appear at trial
unless he was unavailable to testify, and the defendant
had had a prior opportunity for cross-examination.”
Crawford v. Washington, 541 U.S. 36, 53-54 (2004).
Although Walker asserts that Henning was testifying
about what another investigator did, it is at least arguable

8a
that he was speaking about his own work. The record contains evidence that Henning personally reviewed the data
at issue, even though he worked “[i]n conjunction with an
. . . analyst.” (App. at 695.)6 Thus, it appears that Henning
had an independent basis on which to testify about both
the phone records and the CSLI.7 Cf. Bullcoming v. New
Mexico, 564 U.S. 647, 662 (2011) (finding relevant to its
conclusion that a Confrontation-Clause violation occurred
that the State did not contend that the testifying analyst
– who did not perform the lab test at issue – had an “independent opinion” concerning the test results (citation
omitted)).
Assuming, however, that there was some Confrontation-Clause error in permitting Henning’s testimony
about those matters, it was not plain. There is no consensus concerning the proper bounds of the Confrontation
Clause when multiple people collaborate to make a testimonial statement.8 What little law there is supports the
6
See also App. at 708 (“Q: What did you do with the cell site data?
A: I reviewed . . . the information from the phone companies[.] I was
able to see cell site latitude and longitude locations, which I can just
go right into a Google Maps, for example, put in those points and see
where those towers were.”); 722 (“Q: All right. Now here we have the
longer list of calls. Let’s, could you please explain now what this slide
represents, looks -- represents in total? A: Yes. I essentially went
through each day beginning July 1st all the way until July 13th, and
I looked at the records that I received from AT&T for Marcus -- Marcus Walker’s phone to see when his first phone call was essentially
being made each morning and to see where, which tower it was hitting
off of. And consistently every single day in the morning when his
phone call or when his phone was being activated or being used, it was
hit -- hitting off of a tower just a few blocks away from where his residence is.”).
7
See App. at 774 (“THE COURT: This was done in your presence,
right, the work of the analyst, lest suggesting that - - AGENT HENNING: Yes, this was a collaborative effort.”).
8
The Supreme Court’s Confrontation-Clause jurisprudence does
not set entirely clear boundaries. See Stuart v. Alabama, 139 S. Ct.

9a
government’s contention that the testimony Henning
proffered was permissible. See Bullcoming, 564 U.S. at
672-73 (Sotomayor, J., concurring in part) (noting that it
was “not a case in which the person testifying [was] a supervisor, reviewer, or someone else with a personal, albeit
limited, connection to the [testimonial statement] at issue”); Grim v. Fisher, 816 F.3d 296, 307 (5th Cir. 2016)
(“[A]t most, Bullcoming holds that if scientist A performed the test, the prosecution cannot prove a particular
fact contained in scientist A’s testimonial certification by
offering the in-court testimony of scientist B, if scientist
B neither signed the certification nor performed or observed the test. But Bullcoming does not hold that scientist B cannot testify even if he has a sufficient degree of
involvement with the forensic testing.”); Meras v. Sisto,
676 F.3d 1184, 1192 (9th Cir. 2012) (Bea, J., concurring in
part) (“Bullcoming did ‘not address what degree of involvement [with a report’s preparation] is sufficient’ to allow a supervisor to testify in place of the primary author,
but [the supervisor] may have had enough involvement
here to satisfy the Confrontation Clause.” (citation omitted)). The claim of error is especially weak in this case,
given the parties’ agreement that the records themselves
were admissible.9
36, 36 (2018) (Gorsuch, J., dissenting from denial of writ of certiorari)
(observing that “[t]his Court’s most recent foray in [ConfrontationClause jurisprudence relating to forensic testing], Williams v. Illinois, 567 U.S. 50 (2012), yielded no majority and its various opinions
have sown confusion in courts across the country.”).
9
In addition, it is not obvious to us, and Walker has not described,
how the alleged error affected his substantial rights. See United
States v. Jimenez, 513 F.3d 62, 78-79 (3d Cir. 2008) (rejecting a Confrontation Clause challenge where admission of the evidence “simply
had no effect on the verdict”). Three cooperating witnesses testified
that Walker participated in the robbery. The defense engaged in a
lengthy cross-examination of Henning and did not challenge the accuracy of the data reflected on his slides or cite any discrepancies

10a
Walker’s vouching argument also fails. Vouching occurs when a prosecutor, or testimony elicited by a prosecutor, (1) “assure[s] the jury that the testimony of a Government witness is credible, and (2) this assurance [is]
based on either the prosecutor’s personal knowledge, or
other information not contained in the record.” United
States v. Berrios, 676 F.3d 118, 133-34 (3d Cir. 2012) (citation and internal quotation marks omitted). Bolstering
witness testimony in that way is forbidden, id., and would
be a problem here if Henning’s testimony did what
Walker claims. But it did not.
There is no sensible vouching challenge to be made
because Henning’s testimony did not “invite[] a plausible
jury inference of extra-record proof of reliability[.]”
United States v. Milan, 304 F.3d 273, 290 (3d Cir. 2002).
After the cooperators themselves had testified and been
cross-examined about their version of the events, Henning testified about his interviews with them and the cell
phone data that he analyzed, confirming that the cell
phone data was “consistent with [his] investigation[,]”
that is, consistent with what the jury heard about the various locations related to the robbery. (App. at 731-32.) Because Henning’s testimony cannot fairly be interpreted as
improperly bolstering the credibility of the cooperators
through information not in the record, Walker’s vouching
argument fails. See Milan, 304 F.3d at 290 (finding no
plain error where the defendant failed “to show that the
prosecutors referred to facts not adduced at trial or offered personal opinions to bolster the integrity and believability of their witnesses”).

between the phone record exhibits and the underlying records. Thus,
even though the phone records and CSLI were corroborating evidence, Walker has not shown a deprivation of substantial rights on
plain-error review.

11a
C. Attempted Hobbs Act Robbery as Predicate
for § 924(c) Conviction10
Walker next argues that, after the Supreme Court’s
decision in Davis, attempted Hobbs Act robbery cannot
serve as a valid predicate crime of violence under the elements clause of § 924(c). We disagree.
Prior to Davis, there were two statutory avenues
available for determining an offense to be a crime of violence under § 924(c): either through what is called the “residual” clause or through the elements clause of the statute. 18 U.S.C. § 924(c)(3). The residual clause defines a
“crime of violence” as “an offense that is a felony and –
that by its nature, involves a substantial risk that physical
force against the person or property of another may be
used in the course of committing the offense.” Id.
§ 924(c)(3)(B). In Davis, however, the Supreme Court
held that language to be unconstitutionally vague. Davis,
139 S. Ct. at 2336. Accordingly, an offense is now a “crime
of violence” within the meaning of the statute only if it
meets the definition contained in the elements clause,
§ 924(c)(3)(A). That clause defines a “crime of violence” as
“an offense that is a felony and – has as an element the
use, attempted use, or threatened use of physical force

10
Because the jury instructions make clear that the predicate crime
for Walker’s § 924(c) conviction was attempted Hobbs Act robbery
(see infra section II.D.), we do not need to consider whether conspiracy to commit Hobbs Act robbery is categorically a crime of violence
under § 924(c). We note, however, the government’s concession that
“Walker correctly observes that the government, and several appellate courts, have acknowledged after Davis that a conspiracy crime is
not a proper 924(c) predicate under the elements clause.” (Appellee
Sept. 2019 Suppl. Ltr. at 2.) See, e.g., United States v. Barrett, 937
F.3d 126, 130 (2d Cir. 2019); United States v. Simms, 914 F.3d 229,
233-34 (4th Cir. 2019); United States v. Lewis, 907 F.3d 891, 895 (5th
Cir. 2018).

12a
against the person or property of another.” 18 U.S.C.
§ 924(c)(3)(A).
The Supreme Court in Davis also indicated that the
categorical approach is to be used when deciding whether
a conviction is a crime of violence under the elements
clause. Davis, 139 S. Ct. at 2328. We accordingly must ask
whether the minimum conduct punishable as attempted
Hobbs Act robbery qualifies as a crime of violence. See
Moncrieffe v. Holder, 569 U.S. 184, 190-91 (2013) (explaining that, under the categorical approach, we “presume
that the conviction rested upon nothing more than the
least of the act criminalized, and then determine whether
even those acts are encompassed by the generic federal
[definition of § 924(c)]” (citations and internal quotation
marks omitted)).
Our sister courts of appeals are split on the answer to
that question. The Fifth, Seventh, Ninth, and Eleventh
Circuits have all held that attempted Hobbs Act robbery
is categorically a crime of violence under the elements
clause of § 924(c). United States v. Dominguez, 954 F.3d
1251, 1261 (9th Cir. 2020); United States v. Ingram, 947
F.3d 1021, 1025-26 (7th Cir. 2020); United States v. St.
Hubert, 909 F.3d 335, 351-53 (11th Cir. 2018), abrogated
in part on other grounds by Davis, 139 S. Ct. 2319 (2019);
see United States v. Smith, 957 F.3d 590, 596 (5th Cir.
2020) (holding that an “attempt offense that includes the
specific intention to commit a COV [“crime of violence”]
and a substantial step in an effort to bring about or accomplish that COV, is in and of itself a COV under the elements clause.”). The Fourth Circuit disagreed, however,
and recently adopted the position expressed in some dissenting opinions from those other courts, holding that attempted Hobbs Act robbery is not categorically a crime of
violence. United States v. Taylor, 979 F.3d 203, 209-10
(4th Cir. 2020); see also United States v. Tucker, No. 180119, 2020 WL 93951, at *6 (E.D.N.Y. Jan. 8, 2020)

13a
(“[T]his Court concurs with [dissenting] judges of the 11th
Circuit that, ‘it is incorrect to say that a person necessarily
attempts to use physical force within the meaning of
924(c)’s elements clause just because he attempts a crime
that, if completed would be violent.’ ” (citation omitted)).
Given the statutory language and the clear congressional
intent behind it, we join the courts that hold attempted
Hobbs Act robbery is categorically a crime of violence.
1.

Completed Hobbs Act Robbery

Our reasoning begins with a consideration of whether
Hobbs Act robbery as a completed act, rather than an attempt, is categorically a crime of violence. The Hobbs Act
defines “robbery” as:
the unlawful taking or obtaining of personal
property from the person or in the presence of
another, against his will, by means of actual or
threatened force, or violence, or fear of injury,
immediate or future, to his person or property, or
property in his custody or possession, or the person or property of a relative or member of his
family or of anyone in his company at the time of
the taking or obtaining.
18 U.S.C. § 1951(b)(1). Every court of appeals to consider
the issue has held that Hobbs Act robbery is indeed a
crime of violence for purposes of § 924(c),11 and we agree.
11
See United States v. Dominguez, 954 F.3d 1251, 1261 (9th Cir.
2020); United States v. Mathis, 932 F.3d 242, 266 (4th Cir. 2019);
United States v. Jones, 919 F.3d 1064, 1072 (8th Cir. 2019); United
States v. Garcia-Ortiz, 904 F.3d 102, 106-09 (1st Cir. 2018); United
States v. Melgar-Cabrera, 892 F.3d 1053, 1060-66 (10th Cir. 2018);
United States v. Hill, 890 F.3d 51, 60 (2d Cir. 2018); United States v.
Fox, 878 F.3d 574, 579 (7th Cir. 2017); United States v. Gooch, 850
F.3d 285, 292 (6th Cir. 2017); United States v. Buck, 847 F.3d 267, 27576 (5th Cir. 2017); In re St. Fleur, 824 F.3d 1337, 1340-41 (11th Cir.
2016).

14a
Although we have no binding precedent of our own on this
issue, a concurring opinion in United States v. Robinson
concluded that “Hobbs Act robbery is categorically a
crime of violence under Section 924(c)(3).” 844 F.3d 137,
151 (3d Cir. 2016) (Fuentes, J., concurring). The opinion
reasoned that, because the Supreme Court has defined
“physical force” to be simply “force capable of causing
physical pain or injury to another person,” all the alternative means of committing a Hobbs Act robbery – actual or
threatened force, or violence, or fear of injury – can satisfy
§ 924(c)(3)(A)’s requirement of “use, attempted use, or
threatened use of physical force[.]” Id. (citations omitted).
In other words, “by definition, a jury could have found ‘actual or threatened force, or violence, or fear of injury’ only
if the defendant used, attempted to use, or threatened to
use physical force because ‘fear of injury’ cannot occur
without at least a threat of physical force, and vice versa.”
Id.
The concurrence further noted that “Congress specifically singled out the federal bank robbery statute as a
crime that is the prototypical ‘crime of violence’ captured
by Section 924(c). Yet, the federal bank robbery statute,
18 U.S.C. § 2113(a), is analogous to Hobbs Act robbery.”
Id. at 151 n.28 (citing S. Rep. No. 98-225, at 312-13 (1983))
(other citation omitted). Both involve force, violence, or
intimidation, described in various ways, from which “we
can surmise that Congress intended the ‘physical force’
element to be satisfied by intimidation or, analogously,
fear of injury.” Id.
That analysis is thoroughly persuasive, but Walker
disputes it. He argues that Hobbs Act robbery cannot be
a crime of violence because it can be completed by taking
money from a victim “through fear of injury to the victim’s
intangible property” without the use or threatened use of
force. (Appellant Dec. 2020 Suppl. Ltr. at 3.) Not so.

15a
The history of the Hobbs Act makes clear that a physical act is a key component of Hobbs Act robbery. We long
ago explained why in United States v. Nedley, 255 F.2d
350 (3d Cir. 1958). During the promulgation of the Hobbs
Act, Representative Sam Hobbs of Alabama and several
other members of Congress confirmed that the terms
“robbery” and “extortion” in the Act were based on the
then-existing New York penal laws, which defined robbery consistently with the common law definition of that
crime. Id. at 355-56. “The legislative debates are replete
with statements that the conduct punishable under the
Hobbs Act was already punishable under state robbery
and extortion statutes.” United States v. Culbert, 435 U.S.
371, 379 (1978) (citations omitted). And because “[r]obbery, at common law, is the felonious and forcible taking
from the person of another of goods or money to any value
by violence or putting him in fear[,]” Nedley, 255 F.2d at
356 (citation and internal quotation marks omitted), it follows that a non-forcible taking based on fear of injury to
intangible property would not be sufficient to satisfy the
force requirement of Hobbs Act robbery, since Hobbs Act
robbery is simply a common law robbery that affects interstate commerce.12
12
Relying on the Supreme Court’s decision in Gonzales v. DuenasAlvarez, 549 U.S. 183, 193 (2007), the First and Ninth Circuits have
similarly held that a hypothetical robbery involving intangible economic interests does not eliminate Hobbs Act robbery as a crime of
violence under § 924(c) “because [the defendant] fails to point to any
realistic scenario in which a robber could commit Hobbs Act robbery
by placing his victim in fear of injury to an intangible economic interest.” Dominguez, 954 F.3d at 1260; see also Garcia-Ortiz, 904 F.3d at
107 (rejecting the argument that Hobbs Act robbery can be committed by threatening to devalue some intangible economic interest because “we need not consider a theorized scenario unless there is a ‘realistic probability’ that courts would apply the law to find an offense
in such a scenario”). We reach the same conclusion without reliance
on the realistic-probability inquiry. See Salmoran v. Att’y Gen., 909

16a
Therefore, consistent with the reasoning in the concurrence in Robinson and with the position taken by our
sister circuits, we conclude that completed Hobbs Act robbery necessarily has as an element the use, attempted use,
or threatened use of physical force against the person or
property of another and is therefore categorically a crime
of violence.
2.

Attempted Hobbs Act Robbery

With that in mind, we turn to a consideration of attempted Hobbs Act robbery and note at the outset the
general definition of attempt offenses. “[A]n attempt conviction requires evidence that a defendant (1) acted with
the requisite intent to violate the statute, and (2) performed an act that, under the circumstances as he believes
them to be, constitutes a substantial step in the commission of the crime.” United States v. Tykarsky, 446 F.3d
458, 469 (3d Cir. 2006) (citation omitted). The elements
clause of § 924(c) describes a crime of violence as including
the attempted use of force. More specifically, it says a
crime of violence is “an offense that is a felony and – has
as an element the use, attempted use, or threatened use of
physical force against the person or property of another[.]” 18 U.S.C. § 924(c)(3)(A) (emphasis added). As the
government points out, “[t]he Eleventh Circuit and other
courts of appeals have persuasively held that an attempt
to commit a crime that requires the use, attempted use, or
threatened use of physical force is itself a ‘crime of violence’ under Section 924(c)(3)(A) and similarly worded elements clause provisions.” (Appellee Sept. 2019 Suppl.
Ltr. at 2.) Put simply, those courts hold that, because
§ 924(c) explicitly includes “attempted use” of physical
F.3d 73, 81 (3d Cir. 2018) (“[W]here the elements of the crime of conviction are not the same as the elements of the generic federal offense
. . . the realistic probability inquiry . . . is simply not meant to apply[.]” (citations and internal quotation marks omitted)).

17a
force in the definition of a crime of violence, a conviction
for attempt to commit a crime of violence is necessarily
sufficient to serve as a predicate under § 924(c). There is,
however, a contrary view, and so, to explain our own reasoning, we first lay out the competing arguments from
other courts.
The view that attempted Hobbs Act robbery is categorically a crime of violence begins with the Seventh Circuit’s decision in Hill v. United States, 877 F.3d 717, 719
(7th Cir. 2017), cert. denied, 139 S. Ct. 352 (2018). The
court in Hill considered whether a defendant’s conviction
for attempted murder qualified as a violent felony under
the Armed Career Criminal Act (“ACCA”). Id. at 718.
Similar to § 924(c), the ACCA has an elements clause that
labels a violent felony as one that “has as an element the
use, attempted use, or threatened use of physical force
against the person of another[.]” Id.
The defendant in Hill argued that, because an attempt crime under Illinois law consists of setting out to
commit a crime and taking a substantial step toward accomplishing that end, it is possible to attempt murder
without using, attempting, or threatening physical force.
Id. at 719. One might, for example, draw up assassination
plans and buy a gun without any actual use, attempted
use, or threatened use of physical force. The Seventh Circuit rejected that argument, holding that, “[w]hen a substantive offense would be a violent felony under [the
ACCA] and similar statutes, an attempt to commit that
offense also is a violent felony.” Id. The court declared
that “an attempt to commit a crime should be treated as
an attempt to commit every element of that crime[.]” Id.
Later, in United States v. Ingram, the Seventh Circuit applied the holding from Hill to conclude that attempted
Hobbs Act robbery is, for purposes of § 924(c), categorically a crime of violence. 947 F.3d at 1026.

18a
In the meantime, the Eleventh Circuit also applied
the reasoning from Hill to a § 924(c) case. In United
States v. St. Hubert, the court concluded that, like completed Hobbs Act robbery, attempted Hobbs Act robbery
qualifies as a crime of violence. The court said that “because the taking of property from a person against his will
in the forcible manner required by [the Hobbs Act] necessarily includes the use, attempted use, or threatened use
of physical force, then by extension the attempted taking
of such property from a person in the same forcible manner must also include at least the ‘attempted use’ of force.”
909 F.3d at 351 (citations omitted).
When the Eleventh Circuit denied rehearing en banc
in St. Hubert, a dissent challenged the reasoning adopted
from Hill. United States v. St. Hubert, 918 F.3d 1174, 1210
(11th Cir. 2019) (Pryor, Jill, J. joined by Wilson and Martin, JJ., dissenting) (hereinafter “St. Hubert II”). That
dissent rejected the conclusion that an attempt to commit
a crime should be treated as an attempt to commit every
element of that crime, saying instead that “[i]ntending to
commit each element of a crime involving the use of force
simply is not the same as attempting to commit each element of that crime.” Id. at 1212. According to the dissent,
it is incorrect to say that a person necessarily attempts to
use physical force within the meaning of § 924(c) just because he attempts a crime that, if completed, would involve force. Id.
The Ninth Circuit soon thereafter in United States v.
Dominguez sided with the Seventh and Eleventh Circuits
in holding that, when a substantive offense would be a
crime of violence under § 924(c), an attempt to commit
that offense is also a crime of violence. 954 F.3d at 1261.
It said that the “reasons for this are straightforward” because § 924(c) “explicitly includes as crimes of violence offenses that have as an element the ‘attempted use’ or
‘threatened use’ of force. In order to be guilty of attempt,

19a
a defendant must intend to commit every element of the
completed crime. … An attempt to commit a crime should
therefore be treated as an attempt to commit every element of that crime.” Id. (citations omitted).13 The Fifth
Circuit also agreed, adopting the same reasoning in
United States v. Smith and holding that a predicate attempt offense that includes the specific intention to commit a crime of violence and a substantial step to bring
about or accomplish that crime of violence, “is in and of
itself a [crime of violence] under the elements clause.” 957
F.3d at 596.
Finally, and most recently, the Fourth Circuit split
from the consensus and adopted the dissenting view, holding that “[w]here a defendant takes a nonviolent substantial step toward threatening to use physical force … the
defendant has not used, attempted to use, or threatened
to use physical force. Rather, the defendant has merely
attempted to threaten to use physical force. The plain text
of § 924(c)(3)(A) does not cover such conduct.” Taylor, 979
F.3d at 208.
In the present case, Walker of course urges us to reject the reasoning of the Fifth, Seventh, Ninth, and Eleventh Circuits and instead adopt the approach taken by the
Fourth Circuit. Specifically, he argues that attempted
Hobbs Act robbery is not a crime of violence because “it
13
Reiterating the concerns of the Eleventh Circuit dissent, a dissenting opinion in Dominguez challenged the majority’s conclusion
that an attempt to commit a crime should be treated as an attempt to
commit every element of that crime. 954 F.3d at 1264 (Nguyen, J.,
concurring in part and dissenting in part). It argued that the majority’s conclusion “doesn’t follow as a matter of law or logic. There is no
legal basis to conclude from an attempt conviction that the defendant
attempted to commit every element of the underlying crime. And
there’s a logical gap: the majority conflates attempt and intent. Only
by substituting ‘intended’ for ‘attempted’ does the majority’s analysis
make sense.” Id.

20a
does not categorically require the attempted use of physical force—much less the use or threatened use of physical
force—against the person or property of another.” (Appellant Sept. 2019 Suppl. Ltr. at 2.) Quoting the dissent in
St. Hubert II, he says that “[i]ntending to commit each
element of a crime involving the use of force simply is not
the same as attempting to commit each element of that
crime.” (Id. at 3.) Finally, he argues that attempted Hobbs
Act robbery cannot categorically be a crime of violence
because a person can be convicted of Hobbs Act robbery
based on an empty threat of force. It is possible, he says,
for a person “with no intention of using ‘actual’ force” to
be convicted of attempted Hobbs Act robbery. (Id. at 4.)
Although it is true that an intent to act is not the
equivalent of an attempt to act, we nevertheless are unpersuaded by Walker’s arguments and instead agree with
the majority of courts of appeals that § 924(c) does categorically encompass attempted Hobbs Act robbery. We
think it apparent that Congress meant for all attempted
crimes of violence to be captured by the elements clause
of § 924(c), and courts are not free to disregard that direction and hold otherwise.
Beginning with the language of the statute, we read
the phrase “has as an element the … attempted use … of
physical force” to capture attempt offenses because the
word “attempt” is a term of art in criminal law that attaches liability to an incomplete crime when “the perpetrator not only intended to commit the completed offense,
but also performed an ‘overt act’ that constitutes a ‘substantial step’ toward completing the offense.” United
States v. Resendiz-Ponce, 549 U.S. 102, 106-07 (2007) (citations omitted). The word is not used in the general sense
of something unsuccessfully tried. To hold that attempt
crimes are beyond the reach of § 924(c) based on a generic
definition of “attempt” would be to disregard how that

21a
word has been “used in the law for centuries.”14 Id. at 107;
see id. at 108 n.4 (concluding that an indictment charging
an attempt crime need not specifically allege a particular
overt act because “we think that the ‘substantial step’ requirement is implicit in the word ‘attempt’ ”); Sullivan v.
Stroop, 496 U.S. 478, 483 (1990) (“But where a phrase in a
statute appears to have become a term of art … any attempt to break down the term into its constituent words
is not apt to illuminate its meaning.”); cf. United States v.
Nasir, 982 F.3d 144, 159 (3d Cir. 2020) (en banc) (noting
that the similar definition of crime of violence under the
United States Sentencing Guidelines § 4B1.2(a) does explicitly include inchoate crimes). To give the word “attempt” its due, we think it best read in its technical sense.
The manner in which federal attempt crimes are typically defined further supports that reading. Rather than
rely on a general statute outlawing all attempts to violate
federal criminal law, Congress has chosen to interweave
prohibitions on attempted crimes within the statutes

14
The dissent to the Ninth Circuit’s Dominguez opinion argued that
an attempted use of force under § 924(c) “refers to a defendant’s
physical act of trying (but failing) to use violent physical force” (i.e.,
generic attempt versus attempt as an offense). Dominguez, 954 F.3d
at 1264 (Nguyen, J., dissenting in part). According to that dissent, because the other two qualifying elements – using and threatening to
use force – obviously refer to acts, we must interpret “attempted use”
similarly under the principle of noscitur a sociis, or interpreting an
ambiguous item in a list to possess the same attribute as its companion items in that list. Id. But unlike “use of force” and “threatened use
of force,” we can find no crime that has attempted use of force as an
element of a completed offense. As the name suggests, the crimes that
turn on attempted acts of force are in fact attempt offenses. Cf.
United States v. Jackson, 964 F.3d 197, 203 (3d Cir. 2020) (“[A]ccording to the ‘anti-surplusage’ canon, ‘[i]t is our duty to give effect, if possible, to every clause and word of a statute.’ ” (second alteration in
original) (citing Duncan v. Walker, 533 U.S. 167, 174, (2001)).

22a
defining the underlying substantive offenses.15 In those
statutes, it is clear that the words “attempts to” authorize
the prosecution of attempt offenses. We similarly read the
words “attempted use” in the elements clause of § 924(c)
to capture attempt offenses. Again, to hold that attempted
crimes of violence are not categorically crimes of violence
themselves would ignore the time-tested meaning of “attempt” as used throughout the criminal code. Even in the
odd realm of the categorical approach, “we shall not read
into the statute a definition … so obviously ill suited to its
purposes.” Taylor v. United States, 495 U.S. 575, 594
(1990).
Our own prior interpretations of congressional intent
further support the conclusion that attempted crimes of
violence qualify as crimes of violence themselves. Section
924(c) assures additional punishment for those who create
heightened risk or cause additional harm through the possession or use of a firearm in connection with a crime of
violence or a drug trafficking offense. We have recognized
that “Congress’s ‘overriding purpose’ in passing Section
924(c) ‘was to combat the increasing use of guns to commit
federal felonies.’ … The chief sponsor of this provision
15
See, e.g., 18 U.S.C. §§ 844(f)(1) (destruction of U.S. property)
(“Whoever maliciously damages or destroys, or attempts to damage
or destroy, by means of fire or an explosive, [U.S. property,] ... shall
be imprisoned for not less than 5 years and not more than 20 years,
fined under this title, or both.”); 1951(a) (robbery and extortion)
(“Whoever in any way or degree obstructs, delays, or affects commerce or the movement of any article or commodity in commerce, by
robbery or extortion or attempts or conspires so to do … shall be fined
under this title or imprisoned not more than twenty years, or both.”);
1956(a)(1) (money laundering) (“Whoever … conducts or attempts to
conduct such a financial transaction ... shall be sentenced to a fine of
not more than $500,000 ... or imprisonment for not more than twenty
years, or both.”). Reading “attempted use” to capture attempt offenses is thus consistent with broader federal treatment of attempt
offenses.

23a
explained that ‘the provision seeks to persuade the man
who is tempted to commit a Federal felony to leave his gun
at home.’ ” United States v. Walker, 473 F.3d 71, 78 (3d
Cir. 2007) (emphasis added) (quoting Simpson v. United
States, 435 U.S. 6, 10 (1978); Muscarello v. United States,
524 U.S. 125, 132 (1998)).
It seems abundantly clear that, by adding “attempted
use” to the elements clause, Congress was not inviting us
to engage in the casuistry so often associated with the categorical approach and to thereby read those same words
out of the statute. The elected lawmakers wanted to categorically include attempt crimes in the statutory definition, and they said so plainly. Cf. Quarles v. United States,
139 S. Ct. 1872, 1879 (2019) (Cautioning that in the application of the categorical approach, statutes should not be
interpreted in a manner that would eliminate most crimes
of the same type from the generic definition selected by
Congress because doing so “not only would defy common
sense, but also would defeat Congress’[s] stated objective
of imposing enhanced punishment . . . . We should not
lightly conclude that Congress enacted a self-defeating
statute.”). We thus follow the majority rule that attempted Hobbs Act robbery is categorically a crime of violence under § 924(c) and accordingly hold that Walker’s
attack on his firearms conviction fails.
D. Jury Instructions
Although not affected by the Supreme Court’s Davis
decision, Walker also renews his argument that the jury
instructions in this case were insufficient because they
leave open to doubt whether his § 924(c) conviction rested
on his having conspired to commit Hobbs Act robbery or
his having attempted to commit such robbery. There is a
serious argument that only the latter can properly serve

24a
as a predicate for a § 924(c) conviction.16 That argument
is immaterial now, however, because the instructions
made it sufficiently clear that the attempt was the predicate offense.
The jury was instructed that, to convict Walker on the
§924(c) count, it had to find beyond a reasonable doubt:
that the conspirator or the accomplice committed
the crime of attempted interference with interstate commerce by robbery. So you would have
to find . . . that during and in relation to the commission of that attempted Hobbs Act robbery,
the Defendant or one of his accomplices or conspirators knowingly used or carried a firearm.
(App. at 885 (emphasis added).) Although the word “attempt” was repeatedly used in the instruction and the
predicate crime was expressly identified as “attempted
Hobbs Act robbery,” Walker says the District Court
erred in telling the jury that a conviction could be sustained if the “[d]efendant or one of his accomplices or conspirators knowingly used or carried a firearm.” (Id. (emphasis added); Appellant Sept. 2019 Suppl. Ltr. at 5.)
We remain unpersuaded. As the government points
out, nothing in Davis affects our earlier case-specific conclusion that the District Court was clear enough when it
instructed the jury on the attempt charge. That suffices
for affirmance.

16
Supra note 10 (explaining that the government concedes that
“Walker correctly observes that the government, and several appellate courts, have acknowledged after Davis that a conspiracy crime is
not a proper 924(c) predicate under the elements clause.”) (quoting
Appellee Sept. 2019 Suppl. Ltr. at 2 (emphasis added)).

25a
III. Conclusion
For the foregoing reasons, we will affirm the District
Court’s judgment and sentence.

APPENDIX B

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 15-4062

UNITED STATES OF AMERICA
v.
MARCUS WALKER,
Appellant

On Appeal from the District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-13-cr-00391-002)
District Judge: Hon. Legrome D. Davis

SUR PETITION FOR REHEARING

Present: JORDAN, KRAUSE, and ROTH, Circuit
Judges.
The petition for rehearing filed by appellant in the
above-entitled case having been submitted to the judges
who participated in the decision of this Court, it is hereby
ORDERED that the petition for rehearing by the panel is

(26a)

27a
granted. The opinion and judgment entered on June 5,
2019, are vacated.*
The parties are directed to file supplemental letter
briefs, limited to five single-spaced pages, addressing the
significance of United States v. Davis, 139 S. Ct. 2319
(2019), for the proper disposition of this case. The supplemental letter briefs should be directed to the panel and
must be filed within fourteen days.
BY THE COURT,
s/ Cheryl Ann Krause
Circuit Judge
Dated: September 6, 2019
ARR/cc: All Counsel of Record

*
As the merits panel has vacated the prior opinion and judgment,
action is not required by the en banc court.

APPENDIX C

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 15-4062

UNITED STATES OF AMERICA
v.
MARCUS WALKER,
Appellant

On Appeal from the District Court
for the Eastern District of Pennsylvania
(E.D. Pa. 2-13-cr-00391-002)
Honorable Legrome D. Davis, U.S. District Judge

Submitted Under Third Circuit L.A.R. 34.1(a)
January 23, 2018
Before: JORDAN, KRAUSE, and ROTH, Circuit
Judges
(Opinion filed: June 5, 2019)

(28a)

29a

OPINION*
KRAUSE, Circuit Judge.
Appellant Marcus Walker challenges his convictions
for conspiracy to commit Hobbs Act robbery in violation
of 18 U.S.C. § 1951(a), attempted Hobbs Act robbery in
violation of 18 U.S.C. §§ 1951(a) and 2, and using and carrying a firearm during and in relation to a crime of violence in violation of 18 U.S.C. §§ 924(c) and 2. For the reasons stated below, we will affirm.
I.

Background

This case stems from a robbery in which Walker
acted as the lookout. While Walker waited in a car, two of
his accomplices robbed a house, one holding a boy at gunpoint. All of Walker’s codefendants pleaded guilty to various counts, and Walker alone went to trial.
At trial, the Government presented testimony from
three cooperators who were involved in or knew about the
robbery and from Agent Patrick Henning, the lead investigator on the case. In addition to testifying about proffer
sessions he had with two cooperating witnesses, Agent
Henning spoke at length about cell phone records and cell
site location information (CSLI) associated with cell
phones from the investigation.1
With respect to the cell phone records, Agent Henning testified that an analyst extracted data from cell
This disposition is not an opinion of the full Court and pursuant to
I.O.P. 5.7 does not constitute binding precedent.
1
CSLI identifies the cell towers to which a cell phone connects at
certain times, thereby allowing the Government to determine the cell
phone’s approximate location at the time of connection. See Carpenter v. United States, 138 S. Ct. 2206, 2211–12 (2018).
*

30a
phones seized from two of the cooperators, which yielded
contact lists, call records, and text messages. In addition,
the Government obtained through subpoena “call detail
records” from the phone companies for those same
phones, which included “pages and pages of phone records that list, with timestamps, calls that are made in sequential order,” as well as subscriber information. App.
686. From this information, Agent Henning and an analyst organized certain data into slides depicting phone
contacts that the codefendants made to one another during the relevant time frame.
As for the CSLI, Agent Henning created a series of
maps that identified “points of interest” in the case, such
as the location of the robbery target and the latitude and
longitude of the cell towers to which Walker’s cell phone
had connected at pertinent times over thirteen days and
to which a codefendant’s cell phone had connected at pertinent times over two days. When asked how CSLI
worked, Agent Henning responded that he was not an expert in the technology but began to explain what he did
know. Defense counsel objected on the ground that Agent
Henning was not an expert witness.2 After some back and
forth at side bar, the parties agreed that “just transposing
[onto a map] the latitude and longitude” of a cell phone
tower to which a phone had connected—information provided by the phone companies—did not require expert
analysis, and the Court allowed Agent Henning to proceed. App. 710–11. Agent Henning then explained how the
CSLI placed Walker and an accomplice in locations that
were consistent with other information about the robbery.

2
Notably, defense counsel did not object when Agent Henning explained, only moments before, that “[t]his data is cell tower locations,
it’s where the phones that the men in this robbery were using, where
these phones were communicating, which towers they were communicating with at certain parts—certain parts of certain days.” App. 706.

31a
The jury convicted Walker on all counts but, in connection with the Section 924(c) charge, found him guilty of
only using and carrying a firearm, not brandishing it. The
District Court sentenced him to 72 months’ imprisonment
on the robbery counts and a consecutive term of 60
months on the Section 924(c) count. This appeal followed.
II. Discussion3
On appeal, Walker argues that the District Court
committed reversible error by: (1) admitting the CSLI
into evidence in violation of Carpenter v. United States,
138 S. Ct. 2206 (2018); (2) allowing Agent Henning to testify about the phone records and CSLI and improperly
“vouch” for the credibility of the cooperating witnesses in
doing so; and permitting Walker’s Section 924(c) conviction to stand. Because Walker did not raise these objections before the District Court, we review only for plain
error.4 See United States v. DeMuro, 677 F.3d 550, 557
(3d Cir. 2012). We find none.
A. Admissibility of the CSLI
Walker first argues that, under Carpenter v. United
States, the District Court plainly erred when it allowed
the Government to introduce CSLI that it had obtained
without a warrant in violation of his Fourth Amendment
rights. Although it is true that law enforcement must generally secure a search warrant based on probable cause to
The District Court had jurisdiction pursuant to 18 U.S.C. § 3231,
and we have jurisdiction pursuant to 28 U.S.C. § 1291.
4
Plain error exists when “(1) an error was committed (2) that was
plain, and (3) that affected the defendant’s substantial rights.” United
States v. Lopez, 650 F.3d 952, 959 (3d Cir. 2011) (citation omitted).
Even upon finding a plain error, an appellate court has discretion
whether to grant relief but should correct the error if it “seriously
affect[s] the fairness, integrity or public reputation of judicial proceedings.” United States v. Olano, 507 U.S. 725, 736 (1993) (citation
omitted).
3

32a
obtain CSLI, see Carpenter, 138 S. Ct. at 2221, Walker’s
argument is foreclosed by our recent decision in United
States v. Goldstein, which held that the exclusionary rule
does not apply where the government “had an objectively
reasonable good faith belief that its conduct was legal
when it acquired [the] CSLI.” 914 F.3d 200, 202 (3d Cir.
2019). As in Goldstein, the agents here relied on a thenvalid judicial order, a then-valid statute, and then-binding
appellate authority. Id. at 204. The District Court, therefore, did not commit any error, much less plain error, by
admitting the CSLI into evidence.
B. Agent Henning’s Testimony
Walker next argues that the District Court committed plain error by permitting Agent Henning to testify
about the phone records and CSLI because, Walker contends, Agent Henning’s testimony was based on a report
he did not create and therefore violated Walker’s Confrontation Clause rights under the Sixth Amendment.
Walker also argues that Agent Henning improperly
vouched for the testimony of the cooperating witnesses.
We reject both arguments.
The Confrontation Clause provides that “[i]n all criminal prosecutions, the accused shall enjoy the right . . . to
be confronted with the witnesses against him.” U.S.
Const. amend. VI. It bars “admission of testimonial statements of a witness who did not appear at trial unless he
was unavailable to testify, and the defendant had had a
prior opportunity for cross-examination.” Crawford v.
Washington, 541 U.S. 36, 53–54 (2004).
As to Walker’s Confrontation Clause argument, it is
not clear that the District Court’s decision to allow Agent
Henning to testify about the phone records or CSLI was
error at all. The record contains evidence that Agent Henning personally reviewed the data at issue, even though
he worked “[i]n conjunction with an . . . analyst.” App.

33a
695; see, e.g., id. at 708 (“Q: What did you do with the cell
site data? A: I reviewed . . . the information from the
phone companies[.] I was able to see cell site latitude and
longitude locations, which I can just go right into a Google
Maps, for example, put in those points and see where
those towers were.”). Thus, it appears that Agent Henning had an independent basis on which to testify about
both the phone records and the CSLI. 5 Cf. Bullcoming v.
New Mexico, 564 U.S. 647, 662 (2011) (finding relevant to
its conclusion that a Confrontation Clause violation occurred that the State did not contend that the testifying
analyst—who did not perform the lab test at issue—had
an “independent opinion” concerning the test results (citation omitted)).
Moreover, even assuming there was an error, it was
not plain. There is very little case law concerning the
proper bounds of CSLI testimony (as compared to, for example, testimony about forensic laboratory results) and
nothing to suggest one must be a “cell site information analyst” to take the stand. Appellant Br. 21. This is especially true where, as here, the parties agreed that the records themselves were admissible. Moreover, the Supreme Court’s Confrontation Clause jurisprudence, even
as to forensic testing, could benefit from further clarification. See Stuart v. Alabama, 139 S. Ct. 36, 36 (2018) (Gorsuch, J., dissenting from denial of writ of certiorari) (observing that “[t]his Court’s most recent foray in [Confrontation Clause jurisprudence relating to forensic testing],
Williams v. Illinois, 567 U.S. 50 (2012), yielded no majority and its various opinions have sown confusion in courts
across the country.”).

5
See App. 774 (“THE COURT: This was done in your presence,
right, the work of the analyst, lest suggesting that - - AGENT HENNING: Yes, this was a collaborative effort.”).

34a
Finally, the error—if there was one—was harmless.
See United States v. Jimenez, 513 F.3d 62, 78–79 (3d Cir.
2008). While Agent Henning’s testimony was important to
the Government’s case, three cooperating witnesses testified that Walker participated in the robbery. In addition,
as the Government notes, the defense engaged in a
lengthy cross-examination of Agent Henning and did not
challenge the accuracy of the data reflected on his slides
or cite any discrepancies between the phone record exhibits and the underlying records. Thus, even though the
phone records and CSLI were important corroborating
evidence in this case, Walker cannot show prejudice,
much less a miscarriage of justice on plain error review.
Walker’s vouching argument also fails. “Vouching
constitutes an assurance by the prosecuting attorney of
the credibility of a Government witness through personal
knowledge or by other information outside of the testimony before the jury.” United States v. Walker, 155 F.3d
180, 184 (3d Cir. 1998). Although most often associated
with prosecutors’ remarks in argument, vouching can also
occur during witness examination. See United States v.
Berrios, 676 F.3d 118, 134 (3d Cir. 2012). Here, Agent
Henning testified about his proffer sessions with the cooperators and the cell phone data that he analyzed. His
comments that the phone records and CSLI were “consistent with [his] investigation,” e.g., App. 724, were not
based “on information outside of the record,” Berrios, 676
F.3d at 134. To the contrary, Agent Henning testified
about what he learned and how he learned it after the cooperators themselves had testified and been cross-examined about their versions of the events. While he acknowledged that the investigation did not utilize a wiretap or
electronic surveillance, he explained that all records were
obtained after-the-fact, and his analysis was based on
them and his interviews with the cooperators. In short,
Agent Henning spoke from personal knowledge and

35a
therefore was not vouching for the cooperating witnesses.
See United States v. Christie, 624 F.3d 558, 569 (3d Cir.
2010) (holding that there was “no sensible vouching or bolstering challenge to be made” where the lead agent’s challenged testimony was based on his personal knowledge of
the case).
C. Conviction Under Section 924(c)
Finally, Walker argues that his conviction for using
and carrying a firearm in connection with a crime of violence must be vacated because conspiracy and attempt to
commit Hobbs Act robbery do not qualify as crimes of violence under the “elements clause” of 18 U.S.C.
§ 924(c)(3).6 In addition, Walker contends that the District Court committed plain error because it is not clear
whether the attempt count or the conspiracy count was
the predicate offense for his Section 924(c) conviction.
Neither argument is persuasive.
Section 924(c) provides for a mandatory minimum
consecutive sentence where a defendant uses or carries a
firearm during and in relation to a predicate “crime of violence.” 18 U.S.C. § 924(c)(1)(A). The statute defines a
crime of violence in part as an offense that is a felony and
“has as an element the use, attempted use, or threatened
use of physical force against the person or property of another.” Id. § 924(c)(3)(A). The Hobbs Act defines “robbery” as “the unlawful taking or obtaining of personal
property . . . against his will, by means of actual or threatened force, or violence, or fear of injury, immediate or future, to his person or property, or property in his custody
or possession.” Id. § 1951(b)(1).

6
Walker also argues that the residual clause is void for vagueness.
Because we conclude that Walker’s Hobbs Act robbery is a crime of
violence under the circumstances of this case, we need not address
Walker’s challenge to the residual clause.

36a
In United States v. Robinson, 844 F.3d 137, 143 (3d
Cir. 2016), we held that a defendant’s contemporaneous
convictions for Hobbs Act robbery and brandishing a gun
in furtherance of it “necessarily support the determination that the predicate offense was committed with the
‘use, attempted use, or threatened use of physical force’ ”
and, therefore, that the predicate offense constituted a
crime of violence for purposes of Section 924(c). Given
that Walker’s convictions were contemporaneous, Robinson applies here.7
Walker’s final argument about the alleged confusion
regarding which count—conspiracy or attempt—served
as the predicate offense for his Section 924(c) conviction
is belied by the record. In charging the jury on the Section
924(c) count, the District Court told the jury that, in order
to convict Walker on this count, it must find beyond a reasonable doubt “that the conspirator or the accomplice
committed the crime of attempted interference with interstate commerce by robbery.” App. 885 (emphasis added).
Breaking the charge down further, the Court continued,
“So you would have to find . . . that during and in relation
to the commission of that attempted Hobbs Act robbery,
the Defendant or one of his accomplices or conspirators
knowingly used or carried a firearm.” Id. (emphasis
added). Because the Court clearly instructed the jury on
the attempt count, we again find no error, plain or otherwise.

7
Walker contends that it is unclear whether Robinson applies to
non-brandishing cases, but that very lack of clarity would foreclose a
finding of plain error. See United States v. Dobson, 419 F.3d 231, 239
(3d Cir. 2005) (“In order to be ‘plain’ an error must be ‘clear’ or ‘obvious.’ ”) (citation omitted).

37a
III. Conclusion
For the foregoing reasons, we will affirm the District
Court’s judgment and sentence.

APPENDIX D

United States District Court
Eastern District of Pennsylvania
USDC Case Number: DPEA2:13cr000391-002
USM Number: 70546-066

United States of America
v.
Marcus Walker
Filed __________
Date of Original Judgment: 12/16/2015
Defendant’s Attorney: Trevan P. Borum, Esq.
JUDGMENT IN A CRIMINAL CASE
THE DEFENDANT:
☐

pleaded guilty to count(s) __________

☐

pleaded nolo contendere to count(s) __________
which was accepted by the court.

☒

was found guilty on count(s) 1, 2 and 3 after a plea of
not guilty.

The defendant is adjudicated guilty of these offenses:
Title & Section

Nature of Offense

Offense
Ended

Count

18:1951(a)

Conspiracy to
commit

7/11/2012

1

(38a)

39a
Robbery which
Interferes with
Interstate
Commerce
18:1951(a)

Attempted
7/12/2012
Robbery which
Interferes with
Interstate
Commerce

2

18:924(c)(1)(A) Using and Car- 7/18/2012
rying a Firearm During
and in Relation
to a Crime of
Violence and
Brandishing
the Firearm

3

The defendant is sentenced as provided in pages 2
through 6 of this judgment. The sentence is imposed pursuant to the Sentencing Reform Act of 1984.
☐

The defendant has been found not guilty on count(s)
__________

☐

Count(s) __________ ☐ is ☐ are dismissed on the
motion of the United States.

It is ordered that the defendant must notify the United
States attorney for this district within 30 days of any
change of name, residence, or mailing address until all
fines, restitution, costs, and special assessments imposed
by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United
States attorney of material changes in economic circumstances.

40a
12/16/2015
Date of Imposition of Judgment
/s/ Legrome D. Davis
Signature of Judge
Legrome D. Davis, J.
Name and Title of Judge
12/17/2015
Date
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned for
a total term of:
The defendant is sentenced to 72 months imprisonment
on counts 1 and 2 to be served concurrent to each other.
He is sentenced to 60 months imprisonment on count 3 to
be served consecutive to counts 1 and 2. The total term of
imprisonment is 132 months.
☐

The court makes the following recommendations to
the Bureau of Prisons:

☒

The defendant is remanded to the custody of the
United States Marshal.

☐

The defendant shall surrender to the United States
Marshal for this district:

☐

☐

at __________ ☐ a.m.

☐ p.m. on __________

☐

as notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons:
☐

before 2 p.m. on __________.

☐

as notified by the United States Marshal.

41a
☐

as notified by the Probation or Pretrial Services Office.
RETURN

I have executed this judgment as follows:

Defendant delivered on ____________________ to
____________________ at ____________________, with a
certified copy of this judgment.
UNITED STATES MARSHAL
By:
DEPUTY
UNITED
MARSHAL

STATES

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be
on supervised release for a term of: 5 Years
The defendant must report to the probation office in
the district to which the defendant is released within 72
hours of release from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or
local crime.
The defendant shall not unlawfully possess a controlled
substance. The defendant shall refrain from any unlawful
use of a controlled substance. The defendant shall submit
to one drug test within 15 days of release from imprisonment and at least two periodic drug tests thereafter, as
determined by the court.

42a
☐

The above drug testing condition is suspended,
based on the court’s determination that the defendant poses a low risk of future substance abuse.
(Check, if applicable.)

☒

The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous
weapon. (Check, if applicable.)

☒

The defendant shall cooperate in the collection of
DNA as directed by the probation officer. (Check, if
applicable.)

☐

The defendant shall comply with the requirements
of the Sex Offender Registration and Notification
Act (42 U.S.C. § 16901, et seq.) as directed by the
probation officer, the Bureau of prisons, or any state
sex offender registration agency in which he or she
resides, works, is a student, or was convicted of a
qualifying offense. (Check, if applicable.)

☐

The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)

If this judgment imposes a fine or restitution, it is a
condition of supervised release that the defendant pay in
accordance with the Schedule of Payments sheet of this
judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with
any additional conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
1)

the defendant shall not leave the judicial district
without the permission of the court or probation officer;

2)

the defendant shall report to the probation officer in
a manner and frequency directed by the court or
probation officer;

43a
3)

the defendant shall answer truthfully all inquiries by
the probation officer and follow the instructions of
the probation officer;

4)

the defendant shall support his or her dependents
and meet other family responsibilities;

5)

the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for
schooling, training, or other acceptable reasons;

6)

the defendant shall notify the probation officer at
least ten days prior to any change in residence or
employment;

7)

the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any controlled substance or any
paraphernalia related to any controlled substances,
except as prescribed by a physician;

8)

the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

9)

the defendant shall not associate with any persons
engaged in criminal activity and shall not associate
with any person convicted of a felony, unless granted
permission to do so by the probation officer;

10) the defendant shall permit a probation officer to visit
him or her at any time at home or elsewhere and
shall permit confiscation of any contraband observed
in plain view of the probation officer;
11) the defendant shall notify the probation officer
within seventy-two hours of being arrested or questioned by a law enforcement officer;
12) the defendant shall not enter into any agreement to
act as an informer or a special agent of a law

44a
enforcement agency without the permission of the
court; and
13) as directed by the probation officer, the defendant
shall notify third parties of risks that may be occasioned by the defendant’s criminal record or personal history or characteristics and shall permit the
probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.
SPECIAL CONDITIONS OF SUPERVISION
The defendant is to be evaluated and receive any drug and
mental health treatment deemed appropriate by the U.S.
Probation Department while on supervised release. He is
to provide the U.S. Probation Department with yearly tax
returns and monthly financial statements. Also, the defendant is not permitted to open any lines of credit or
credit cards while on supervised release without the advanced permission of the U.S. Probation Department.
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment Fine

Restitution

$300.00

$1,000.00

$

☐

The determination of restitution is deferred until
__________. An Amended Judgment in a Criminal
Case (AO 245C) will be entered after such determination.

☐

The defendant must make restitution (including
community restitution) to the following payees in the
amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned

45a
payment, unless specified otherwise in the priority
order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is
paid.
Name of
Payee

Total Loss1

Restitution Ordered

Priority or
Percentage

Andre
Smith

$1,000.00

$1,000.00

100

TOTALS

$1,000.00

$1,000.00

100

☐

Restitution amount ordered pursuant to plea agreement $__________

☐

The defendant must pay interest on restitution and
a fine of more than $2,500, unless the restitution or
fine is paid in full before the fifteenth day after the
date of the judgment, pursuant to 18 U.S.C. §
3612(f). All of the payment options on Sheet 6 may
be subject to penalties for delinquency and default,
pursuant to 18 U.S.C. § 3612(g).

☐

The court determined that the defendant does not
have the ability to pay interest and it is ordered that:

1
Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on
or after September 13, 1994, but before April 23, 1996.

46a
☐

the interest requirement is waived for the ☐ fine
☐ restitution.

☐

the interest requirement for the ☐ fine ☐ restitution
is modified as follows: ____________________
SCHEDULE OF PAYMENTS

Having assessed the defendant’s ability to pay, payment
of the total criminal monetary penalties is due as follows:
☒

Lump sum payment of $300.00 due immediately, balance due

☐

not later than _________, or

☐

in accordance with ☐C, ☐D, ☐E, or ☒F below; or

B

☐

Payment to begin immediately (may be
combined with ☐C, ☐D, ☐F below); or

C

☐

Payment in equal __________ (e.g., weekly,
monthly, quarterly) installments of
$__________ over a period of __________
(e.g., months or years), to commence
__________ (e.g., 30 or 60 days) after the
date of this judgment; or

D

☐

Payment in equal __________ (e.g., weekly,
monthly, quarterly) installments of
$__________ over a period of __________
(e.g., months or years), to commence
__________ (e.g., 30 or 60 days) after release from imprisonment to a term of supervision; or

E

☐

Payment during the term of supervised release will commence within __________
days (e.g., 30 or 60 days) after release from
imprisonment. The court will set the

A

47a
payment plan based on an assessment of the
defendant’s ability to pay at that time; or
F

☒

Special instructions regarding the payment
of criminal monetary penalties:
THE DEFENDANT SHALL MAKE
PAYMENTS FROM ANY WAGES HE
MAY EARN IN PRISON IN ACCORDANCE WITH THE BUREAU OF PRISONS’ INMATE FINANCIAL RESPONSIBILITY PROGRAM. ANY PORTION
OF THE FINE OR ASSESSMENT THAT
IS NOT PAID IN FULL AT THE TIME
OF RELEASE FROM IMPRISONMENT
SHALL BECOME A CONDITION OF
SUPERVISED RELEASE, WITH PAYMENTS MADE AT THE RATE OF NOT
LESS THAN $25.00 PER QUARTER TO
BEGIN 90 DAYS AFTER RELEASE
FROM CUSTODY.

Unless the court has expressly ordered otherwise, if this
judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial
Responsibility Program, are made to the clerk of the
court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
☒ Joint and Several
Defendant and Co-Defendant Names and Case Numbers
(including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
Raquien Barber - 13-391-1

48a
Dominick Clements - 13-391-3
☐

The defendant shall pay the cost of prosecution.

☐

The defendant shall pay the following court cost(s):

☐

The defendant shall forfeit the defendant’s interest
in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

APPENDIX E

RELEVANT STATUTORY PROVISIONS
18 U.S.C. § 924
§ 924. Penalties
***
(c)(1)
(A) Except to the extent that a greater minimum sentence is otherwise provided by this subsection or by
any other provision of law, any person who, during and
in relation to any crime of violence or drug trafficking
crime (including a crime of violence or drug trafficking
crime that provides for an enhanced punishment if
committed by the use of a deadly or dangerous weapon
or device) for which the person may be prosecuted in
a court of the United States, uses or carries a firearm,
or who, in furtherance of any such crime, possesses a
firearm, shall, in addition to the punishment provided
for such crime of violence or drug trafficking crime—
(i) be sentenced to a term of imprisonment of not
less than 5 years;
(ii) if the firearm is brandished, be sentenced to a
term of imprisonment of not less than 7 years; and
(iii) if the firearm is discharged, be sentenced to a
term of imprisonment of not less than 10 years.
(B) If the firearm possessed by a person convicted of
a violation of this subsection—
(i) is a short-barreled rifle, short-barreled shotgun, or semiautomatic assault weapon, the person
shall be sentenced to a term of imprisonment of not
less than 10 years; or

(49a)

50a
(ii) is a machinegun or a destructive device, or is
equipped with a firearm silencer or firearm muffler, the person shall be sentenced to a term of imprisonment of not less than 30 years.
(C) In the case of a violation of this subsection that occurs after a prior conviction under this subsection has
become final, the person shall—
(i) be sentenced to a term of imprisonment of not
less than 25 years; and
(ii) if the firearm involved is a machinegun or a destructive device, or is equipped with a firearm silencer or firearm muffler, be sentenced to imprisonment for life.
(D) Notwithstanding any other provision of law—
(i) a court shall not place on probation any person
convicted of a violation of this subsection; and
(ii) no term of imprisonment imposed on a person
under this subsection shall run concurrently with
any other term of imprisonment imposed on the
person, including any term of imprisonment imposed for the crime of violence or drug trafficking
crime during which the firearm was used, carried,
or possessed.
(2) For purposes of this subsection, the term “drug trafficking crime” means any felony punishable under the
Controlled Substances Act (21 U.S.C. 801 et seq.), the
Controlled Substances Import and Export Act (21 U.S.C.
951 et seq.), or chapter 705 of title 46.
(3) For purposes of this subsection the term “crime of violence” means an offense that is a felony and—
(A) has as an element the use, attempted use, or
threatened use of physical force against the person or
property of another, or

51a
(B) that by its nature, involves a substantial risk that
physical force against the person or property of another may be used in the course of committing the offense.
(4) For purposes of this subsection, the term “brandish”
means, with respect to a firearm, to display all or part of
the firearm, or otherwise make the presence of the firearm known to another person, in order to intimidate that
person, regardless of whether the firearm is directly visible to that person.
(5) Except to the extent that a greater minimum sentence
is otherwise provided under this subsection, or by any
other provision of law, any person who, during and in relation to any crime of violence or drug trafficking crime
(including a crime of violence or drug trafficking crime
that provides for an enhanced punishment if committed
by the use of a deadly or dangerous weapon or device) for
which the person may be prosecuted in a court of the
United States, uses or carries armor piercing ammunition, or who, in furtherance of any such crime, possesses
armor piercing ammunition, shall, in addition to the punishment provided for such crime of violence or drug trafficking crime or conviction under this section—
(A) be sentenced to a term of imprisonment of not less
than 15 years; and
(B) if death results from the use of such ammunition—
(i) if the killing is murder (as defined in section
1111), be punished by death or sentenced to a term
of imprisonment for any term of years or for life;
and
(ii) if the killing is manslaughter (as defined in section 1112), be punished as provided in section 1112.
***

52a
18 U.S.C. § 1951
§ 1951. Interference with commerce by threats or
violence
(a) Whoever in any way or degree obstructs, delays, or
affects commerce or the movement of any article or commodity in commerce, by robbery or extortion or attempts
or conspires so to do, or commits or threatens physical violence to any person or property in furtherance of a plan
or purpose to do anything in violation of this section shall
be fined under this title or imprisoned not more than
twenty years, or both.
(b) As used in this section—
(1) The term “robbery” means the unlawful taking or
obtaining of personal property from the person or in
the presence of another, against his will, by means of
actual or threatened force, or violence, or fear of injury, immediate or future, to his person or property,
or property in his custody or possession, or the person
or property of a relative or member of his family or of
anyone in his company at the time of the taking or obtaining.
(2) The term “extortion” means the obtaining of property from another, with his consent, induced by
wrongful use of actual or threatened force, violence, or
fear, or under color of official right.
(3) The term “commerce” means commerce within the
District of Columbia, or any Territory or Possession of
the United States; all commerce between any point in
a State, Territory, Possession, or the District of Columbia and any point outside thereof; all commerce between points within the same State through any place
outside such State; and all other commerce over which
the United States has jurisdiction.

53a
(c) This section shall not be construed to repeal, modify
or affect section 17 of Title 15, sections 52, 101-115, 151166 of Title 29 or sections 151-188 of Title 45.

